AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
    OFFICE OF JUVENILE JUSTICE AND
       DELINQUENCY PREVENTION
           GRANT AWARDED TO
     CLEVELAND BOTANICAL GARDEN
            CLEVELAND, OHIO


        U.S. Department of Justice
      Office of the Inspector General
               Audit Division


       Audit Report GR-50-11-002
             December 2010
           AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
   OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION
                      GRANT AWARDED TO
                CLEVELAND BOTANICAL GARDEN
                       CLEVELAND, OHIO

                                EXECUTIVE SUMMARY

      The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of an Office of Justice Programs (OJP), Office
of Juvenile Justice and Delinquency Prevention (OJJDP) grant awarded to the
Cleveland Botanical Garden (CBG). The CBG, located in Cleveland, Ohio, is a
botanical garden that also conducts outreach programs, including five urban
farms located in various Cleveland neighborhoods.

       The primary purpose of the grant was to provide work-study
opportunities for Cleveland high school students by expanding the CBG’s
existing Green Corps project. 1 The CBG was awarded $491,892 under grant
number 2008-JL-FX-0182. The grant was used to improve four existing urban
farms and to add a fifth farm, pay the salaries and fringe benefits of the
program supervisors and the salaries of the students, and to improve the
education curriculum. We tested the CBG’s accounting records to determine
if reimbursements claimed for costs under the grant were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the grant, and to determine program
performance and accomplishments.

       The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) grant expenditures, including
personnel; (3) budget management and control; (4) grant requirements;
(5) program performance and accomplishments; (6) drawdowns; and
(7) financial status and progress reports. We determined that indirect costs,
subgrantees, and local match were not applicable to this grant.




       1
           Green Corps is a workforce-training program for urban youth founded by the
Cleveland Botanical Garden. Students earn a wage as they learn about growing produce
and life, leadership, and job skills. Produce that is grown on the five urban farms is sold at
local farmers markets with the profits reinvested in the program.
       As of December 31, 2009, the grantee had been reimbursed $491,892
in grant funds. We performed detailed testing of 50 invoices, or 27 percent,
of the invoices paid through December 31, 2009. We tested four payrolls
totaling $21,112, out of the total payroll of $354,120. We examined the
CBG’s accounting records, financial and progress reports, and operating
policies and procedures. Our findings are summarized below.

           •   Program income earned through the sale of produce and salsa
               made in part from Green Corps farm-raised produce was not
               reported.

           •   The Financial Status Reports did not match the accounting
               records and did not include program income. 2 In addition, two
               Financial Status Reports and Progress Reports were submitted
               late.

      Our report contains one recommendation to address the preceding
issues, which are discussed in detail in the Findings and Recommendations
section of the report. Our audit objective, scope, and methodology appear
in Appendix I of the report.




       2
          Financial Status Reports (FSR) are no longer used to report grantee financial
activity. Beginning with the reporting period of October 2009 through December 2009,
grantees are required to submit quarterly Federal Financial Reports to provide OJP with
information on how grant funds are being utilized. For consistency, in the body of this
report we use the term “FSR” to refer to both types of reports.


                                           - ii -
                                 TABLE OF CONTENTS



INTRODUCTION            ..................................................................... 1
    Background .......................................................................... 1
    Our Audit Approach ............................................................... 2
FINDINGS AND RECOMMENDATIONS........................................ 3
    Operational and Administrative Structure ................................. 3
    Accounting and Internal Controls ............................................ 3
    Grant Expenditures ............................................................... 4
    Program Income ................................................................... 5
    Budget Management and Control ............................................ 5
    Grant Drawdowns ................................................................. 6
    Grant Reporting .................................................................... 6
    Program Performance and Accomplishments ............................ 7
    Views of Responsible Officials ................................................. 7
    Recommendations ................................................................ 7
APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ........... 8

APPENDIX II – AUDITEE RESPONSE ....................................... 10

APPENDIX III – OFFICE OF JUSTICE PROGRAMS RESPONSE .. 11

APPENDIX IV – OFFICE OF THE INSPECTOR GENERAL
               ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT............ 13
                                     INTRODUCTION

        The Department of Justice (DOJ) Office of the Inspector General, Audit
  Division, has completed an audit of an Office of Justice Programs (OJP), Office
  of Juvenile Justice and Delinquency Prevention (OJJDP) grant awarded to the
  Cleveland Botanical Garden (CBG), located in Cleveland, Ohio. The CBG was
  awarded $491,892 under grant number 2008-JL-FX-0182. The purpose of the
  grant was to provide material for the CBG’s four existing urban farms, provide
  funding to start a fifth urban farm, hire additional students to work on the
  various urban farm locations, and to enhance the curriculum.

        The purpose of this audit was to determine whether reimbursements
  claimed for costs under the grant were allowable, supported, and in
  accordance with applicable laws, regulations, guidelines, and terms and
  conditions of the grant. In addition, we attempted to ascertain whether the
  grantee was meeting the program objectives of the grant.

  Background

         The CBG is a non-profit, private educational organization that is located
  in the University Circle neighborhood on Cleveland’s east side. It serves the
  community as a botanical garden and through various community outreach
  programs such as its Green Corps project. The Green Corps project operates
  five urban farms that provide employment opportunities for Cleveland high
  school students. The students also receive education on horticulture,
  nutrition, entrepreneurship, and personal finance.

                    OFFICE OF JUVENILE JUSTICE AND
                    DELINQUENCY PREVENTION GRANT
                AWARDED TO CLEVELAND BOTANICAL GARDEN
      AWARD             AWARD          AWARD     AWARD
      NUMBER          START DATE      END DATE   AMOUNT            OBJECTIVE
                                                            To expand an existing
                                                            program to provide
 2008-JL-FX-0182 07/01/2008 12/31/2009 $491,892             additional work and
                                                            study opportunities for
                                                            area students.
Total                                            $491,892
Source: Office of Justice Programs
Our Audit Approach

      We tested compliance with what we consider the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the 2008 OJP Financial Guide, grant award
documents, and relevant Office of Management and Budget (OMB) Circulars.
We tested the CBG’s:

       •   Accounting and Internal Controls to determine whether the
           grantee had sufficient accounting and internal controls to identify
           and report expenditures and reimbursements.

       •   Grant Expenditures to determine the accuracy and allowability of
           costs charged to the grant.

       •   Budget Management and Control to determine the amounts
           budgeted and the actual costs for each approved cost category and
           to determine if the grantee deviated from the approved budget, and
           if so, if the grantee received the necessary approval.

       •   Accomplishment of Grant Requirements and Objectives to
           determine whether the grantee met or is capable of meeting the
           grant objectives and whether the grantee collected data and
           developed performance measures to assess accomplishment of the
           intended objectives.

       •   Grant Drawdowns to determine whether grant drawdowns were
           adequately supported and if the grantee was managing grant
           receipts in accordance with federal requirements.

       •   Financial Status and Progress Reports to determine if the
           required reports were submitted on time and accurately reflected
           grant activity. 3

      We also performed limited work and confirmed that the CBG did not
receive reimbursement for indirect costs, was not required to contribute any
local matching funds, and did not award funds to sub-grantees. We
therefore performed no testing in these areas.


       3
          Financial Status Reports (FSR) are no longer used to report grantee financial
activity. Beginning with the reporting period of October 2009 through December 2009,
grantees are required to submit quarterly Federal Financial Reports to provide OJP with
information on how grant funds are being utilized. For consistency, in the body of this
report we use the term “FSR” to refer to both types of reports.


                                           -2 -
              FINDINGS AND RECOMMENDATIONS

     We determined that the Cleveland Botanical Garden
     generally met the objectives of the grant. However, we
     found that the grantee generated income that was used to
     enhance the project, but the grantee did not track what
     portion of its income was allocable to the audited grant. We
     also found that the grantee’s Financial Status Reports did
     not match the accounting records, did not include program
     income, and that two Financial Status Reports and two
     Progress Reports were submitted late.

       We performed audit work at the CBG Office in Cleveland, Ohio, where
we obtained an understanding of the accounting system and reviewed a
sample of grant expenditures. We reviewed the criteria governing grant
activities, including the 2008 OJP Financial Guide and relevant Office of
Management and Budget (OMB) Circulars. In addition, we reviewed grant
documents, including the application, award, budgets, and financial and
progress reports. We also interviewed key personnel at the CBG.

Operational and Administrative Structure

      After receiving the award, the CBG assigned a CBG employee to
function as the Grant Administrator. The comptroller stated that the grant
administrator was to ensure that the grant objectives were being met, track
the budget, request drawdowns of funds from OJP, and review invoices
before they were sent to be processed by the accounting department, which
maintained the accounting records, performed the bank reconciliations, and
paid grant invoices.

Accounting and Internal Controls

      According to the 2008 OJP Financial Guide, grant recipients are
required to establish and maintain accounting and internal control systems
to account accurately for funds awarded to them. Further, the accounting
system should ensure, among other things, the identification and accounting
for receipt and disposition of all funds, funds applied to each budget
category included in the approved award, and non-federal matching
contributions.

      We reviewed the grantee’s financial management system, policies and
procedures, and audit reports to assess the CBG’s risk of non-compliance
with laws, regulations, guidelines, and terms and conditions of the grant.



                                    -3 -
We did not test internal controls or the financial management system for the
CBG as a whole.

      We interviewed CBG employees responsible for areas such as payroll,
purchasing, and accounts payable, and we observed the grantee’s
accounting activities to assess further risk. In our initial review of the
grantee’s financial management system, we found that not all grant-related
transactions were properly coded as grant-related transactions. When we
brought this to the grantee’s attention, the grantee corrected this by
re-coding all of its grant-related transactions. We were then able to
determine that the CBG had properly accounted for grant funds and grant-
related expenditures. We also determined that the grantee operates under
procedures that are in its policy and procedures manual.

Grant Expenditures

      The approved grant budget included the following:

                   CLEVELAND BOTANICAL GARDEN
          APPROVED GRANT BUDGET AND DESCRIPTION OF COSTS

                         APPROVED
    COST CATEGORY         BUDGET           DESCRIPTION OF PLANNED EXPENDITURES

  Personnel                $354,120   Education Director, farm managers, students

  Fringe Benefits            47,745   Standard fringe benefit cost
                                      To attend various meetings associated with the
  Travel                      4,020   program and for student transportation

  Equipment                   3,000   Tools

  Supplies                   27,084   Gardening soil, plants, worms, and bees
                                      Contracts for information technology, bottling of
                                      salsa, lease of properties, photographer, soil
  Contract/Consultant        39,950   testing, and tree removal

  Other                      15,973   Portable toilets, trucks, and equipment rental

  TOTAL                   $491,892

  FEDERAL FUNDS           $491,892

  LOCAL MATCH                    $0
 Source: Office of Justice Programs and Cleveland Botanical Garden Records

      The grantee expended grant funds to establish an additional urban
farm, to upgrade four existing urban farms, and to enhance its curriculum.
The students were required to attend education sessions on horticulture,
entrepreneurship, business, and life skills. In addition, the students


                                         -4 -
participated on research projects with the Ohio State Agriculture Research
and Development Center, and they visited various area colleges. The
students used their skills to grow produce at the urban farms, which they
sold at area farmers markets. They also used their produce to make salsa
that they sold at the farmers markets and at other area locations.

      To determine the accuracy and allowability of costs charged to the
grant, we reviewed a sample of personnel and fringe benefits and other
direct expenditures. According to the grantee’s accounting records, total
expenditures for the grant were $491,892, and the CBG had been
reimbursed for the total amount. We tested 50 paid invoices, which totaled
$34,052, and a sample of 4 payrolls through December 31, 2009. The dollar
amount that we tested for payroll totaled $21,112 out of $354,120 and
fringe benefits of $1,575 out of $47,745. The total amount of expenditures
tested was $56,739. Our testing revealed that all expenditures were
allowable and adequately supported.

Program Income

      The project narrative and the budget narrative that the grantee
submitted to OJP stated that the project would generate income from the
sale of fresh produce and salsa. However, we found in our review that the
grant award package from OJP was not consistent in how it dealt with
program income. Specifically, in the section on cost categories in the award
package, OJP indicated that the amount of program income would be zero.
The project summary section in the same award package, though, notes that
the CBG will sell produce at farmers’ markets and produce bottled foods
using its harvest.

      We determined that the CBG did earn program income from the sale of
fresh produce and salsa. We also determined that the CBG deposited these
funds into the project account for grant-related use. However, the CBG did
not track what portion of the income was allocable to the audited grant and
did not report the program income to OJP.

Budget Management and Control

      The CBG Grant Administrator monitored the grant budget to ensure
that overall spending was appropriate and that spending by budget category
was proper. She did this by maintaining a spreadsheet of the expenses that
were charged to the grant. When we compared the grant budget against
actual spending, we found that all expenditures in all categories equaled the
budgeted amounts. We also determined that the funds had all been



                                    -5 -
expended and used according to the terms of the grant; the enhancement of
the project and adding the fifth urban farm.

Grant Drawdowns

      We reviewed the CBG’s process for requesting OJP reimbursement for
grant-related costs to ensure that reimbursement requests were supported
adequately by official accounting records and were in accordance with
federal requirements. We determined that the support was adequate and
the requests were proper.

Grant Reporting

      The 2008 OJP Financial Guide states that two types of reports are to
be submitted by the grantee. Financial Status Reports (FSR) provide
information on monies spent and the unobligated amounts remaining in the
grant. Program progress reports provide information on the status of grant-
funded activities.

Financial Status Reports

       The 2008 OJP Financial Guide states that FSRs are due within 45 days
after the end of the calendar quarter. We reviewed all six FSRs and
determined that one report was submitted 11 days late. In addition, our
analysis showed that four of the six FSRs contained errors. Our results for
all FSRs reviewed are displayed in the following table. We noted that the
FSRs did not match the CBG’s accounting records. Grantee officials
explained that they realized that they had made errors on several FSRs and
used successive FSRs to make corrections. The FSRs also did not report
income earned from the project, which is a requirement according to the
2008 OJP Financial Guide

            COMPARISON OF EXPENDITURES REPORTED IN
              THE CBG’s FINANCIAL STATUS REPORTS
                     AND GENERAL LEDGER
                                 Expenditures
                                                Expenditures
          Report Period           per General                     Difference
                                                   per FSR
                                    Ledger
      07/01/08 to 09/30/08             130,929        110,910          (20,019)
      10/01/08 to 12/31/08              28,745         37,166             8,421
      01/01/09 to 03/31/09              48,076         48,076                 0
      04/01/09 to 06/30/09             104,212        104,212                 0
      07/01/09 to 09/30/09             150,722        141,538           (9,184)
      10/01/09 to 12/31/09              29,208         49,990            20,782
     Source: Office of Justice Programs and Cleveland Botanical Garden




                                        -6 -
Progress Reports

       According to the 2008 OJP Financial Guide, progress reports are due
semiannually on January 30 and July 30 for the life of the grant. We
reviewed the three most recent progress reports and determined that the
data in the three reports that the grantee submitted was supported by
documentation about the grant-funded activities. However, we found that
the first report was submitted 25 days late and the second was submitted
8 days late.

Program Performance and Accomplishments

     The first goal of the grant was to help urban youth break the cycle of
poverty by providing area students with a project-based experience to learn
about urban horticulture and entrepreneurship. The second goal was to
expand the program’s capacity by adding an additional urban farm.

       The project achieved the first goal by providing education to the
students that allowed them to raise produce at the urban farms that the
students either sold at local farmers markets or used to produce salsa for
retail sale. The project also met the second goal of expanding the program by
creating the fifth urban farm in 2009. We found that the project grew from
40 students in 2007 to 74 students in 2009. Additionally, an official from the
CBG told us that all of the participating students who graduated from high
school in 2010 were accepted into college or the military.

Views of Responsible Officials

       We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference, and we have included
their comments as appropriate.

Recommendations

     We recommend that OJP:

  1. Require the CBG to submit corrected Financial Status Reports, which
     should include any program income earned.




                                    -7 -
   APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards and included such tests as were
considered necessary to accomplish our objectives. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

       Our audit concentrated on, but was not limited to, the inception of the
grant on July 1, 2008, through December 31, 2009. This was an audit of the
Juvenile Justice and Delinquency Prevention Act of 2002 grant
number 2008-JL-FX-0182 for which the Cleveland Botanical Garden (CBG)
was awarded a total of $491,892. In conducting our audit, we performed
sample testing in two areas – drawdowns and grant expenditures. In this
effort, we selected 50 transactions exclusive of payroll and fringe benefits for
review. We also performed separate tests of the payroll and fringe benefit
costs.

      In total, the grantee had drawn down $491,892 and reported grant
expenses of $491,892 as of December 31, 2009. We tested 50 invoices,
which totaled $34,052. In addition, we tested $21,112 out of a total of
$354,120 in salary costs and $1,575 out of $47,745 in total fringe benefits
costs. In total, we tested $56,739.

       We tested compliance with what we consider the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide. We reviewed the CBG’s grant activities in the following areas:
(1) internal control environment; (2) grant expenditures, including
personnel; (3) budget management and control; (4) grant requirements;
(5) program performance and accomplishments; (6) drawdowns; and
(7) financial status and progress reports. We determined that indirect costs,
local match, and subgrantees were not applicable to this grant.




                                      -8 -
      The CBG is a non-profit, private educational organization that serves
the community through its botanical garden and by providing education
opportunities to the community, including the Green Corps program. An
independent certified public accounting firm audited the CBG in 2008, and
the results of this audit were reported in the independent auditor’s report
dated December 31, 2008. As the CBG did not meet the criteria for a Single
Audit Report, none was performed. We reviewed the independent auditor's
assessment to identify control weaknesses and significant noncompliance
issues related to the grantee or federal programs. The independent
auditor’s assessment disclosed no control weaknesses or significant
noncompliance issues related to the CBG. We performed limited testing of
source documents to assess the timeliness and accuracy of Financial Status
Reports, reimbursement requests, expenditures, and Progress Reports;
evaluated performance to grant objectives; and reviewed the grant-related
internal controls over the financial management system. We also tested a
sample of invoices, payroll, and fringe benefits as of December 31, 2009.
However, we did not test the reliability of the financial management system
as a whole.




                                   -9 -
                       APPENDIX II – AUDITEE RESPONSE




October 20, 2010

To:    Carol Taraszaka, Regional Audit Manager
From: Sara Stone, Director of Development
Re:    Audit of grant 2008-JL-FX-0182

Several Cleveland Botanical Garden representatives have read the draft audit report for the grant referenced
above. We are requesting that the following items receive additional consideration for inclusion or deletion:
    1. Page 1, under background. Please add “non-profit” to CBG is a private educational organization
    2. Page 4, Description of consultant/contract in budget: IT consultants account for a nominal
        percentage of the funds spent in this line item; please add salsa bottling, soil testing or some other
        indicator that expenses other than IT were incurred.
    3. Page 5, program income. We were not asked to provide revenue figures for program income. The
        wording in the report implies that the Garden is at fault and we believe we were in compliance with
        what OJP required. Can this be re-worded?
    4. Page 6, FSR report dates. According to our records, one report was submitted 11 days late and all
        others were submitted before the actual deadline. We have no record of a report submitted 40 days
        late. Our records indicate the following:
        FSR Due date                        FSR Submitted date
        11/14/08                            11/25/08
        2/14/09                             2/13/09
        5/15/09                             5/5/09
        8/14/09                             8/14/09
        11/14/09                            11/6/09
        3/31/10                             3/26/10

    5. Page 7, The first progress report was due to the OJP on January 30, 2009. However, we were advised
       by OJP, and encouraged, to submit that report after the mandatory training attended by two Garden
       representatives in Washington DC. From January 26th – 28th. Although no formal extension could
       be extended, our Account Manager permitted us to submit the report even later due to severe
       weather conditions that kept our staff in D.C. for longer than anticipated. That report was submitted
       on February 24, 2009.
    6. Page 10, please insert “non-profit” in the description of the Garden as a private educational
       organization.

Please contact me if you have any questions or need any further information.




                                                     - 10 -
APPENDIX III – OFFICE OF JUSTICE PROGRAMS RESPONSE


                                                   U.S. Department of Justice

                                                   Office of Justice Programs

                                                  Office of Audit, Assessment, and Management



                                                 Washington, D.C. 20531




October 28, 2010


MEMORANDUM TO:                Carol S. Taraszka
                              Regional Audit Manager
                              Office of the Inspector General
                              Chicago Regional Audit Office

                                 /s/
FROM:                         Maureen A. Henneberg
                              Director

SUBJECT:                      Response to the Draft Audit Report, Office of Justice Programs,
                              Office of Juvenile Justice and Delinquency Prevention, Grant
                              Awarded to Cleveland Botanical Garden, Cleveland, OH

This memorandum is in response to your correspondence, dated September 30, 2010,
transmitting the subject draft audit report for the Cleveland Botanical Garden (CBG). We
consider the subject report resolved and request written acceptance of this action from your
office.

The report contains one recommendation and no questioned costs. The following is the Office
of Justice Programs’ analysis of the draft audit report recommendation. For ease of review, the
recommendation is restated in bold and is followed by our response.

       We recommend that OJP require the CBG to submit corrected Federal Financial
       Reports, which should include any program income earned.

       We agree with the recommendation. We will coordinate with CBG to obtain a revised,
       current Federal Financial Report for grant number 2008-JL-FX-0182, which will include
       program income, if any, earned on grant funds.



                                             - 11 -
We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

cc:    Jeffrey W. Slowikowski
       Acting Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Marilyn Roberts
       Deputy Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Angela Parker
       Program Manager
       Office of Juvenile Justice and Delinquency Prevention

       Richard P. Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division

       OJP Executive Secretariat
       Control Number 20101954




                                            - 12 -
     APPENDIX IV – OFFICE OF THE INSPECTOR GENERAL
          ANALYSIS AND SUMMARY OF ACTIONS
            NECESSARY TO CLOSE THE REPORT


      We provided the Cleveland Botanical Garden (CBG) and the Office of
Justice Programs (OJP) our draft audit report for review and comment. The
response we received from the CGB has been incorporated into our report as
Appendix III, and the response that we received from OJP has been
incorporated into our report as Appendix IV. In our analysis below, we
respond to any relevant comments and detail the actions necessary to close
the recommendation.

Recommendation Number:

1.    Resolved. OJP concurred with our recommendation that the CGB
      submit corrected financial reports, which should include any program
      income earned. This recommendation can be closed when we receive
      evidence that the CGB has submitted corrected financial reports to
      OJP.




                                   - 13 -
